No. ______
In the

Supreme Court of the United States
__________________

BRAD MARTIN, in his individual capacity and as an
employee of the Arizona Department of Public Safety;
STATE OF ARIZONA,
Petitioners,
v.
CARLOS CASTRO,
__________________

Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit

__________________

PETITION FOR WRIT OF CERTIORARI
__________________
TIMOTHY J. BERG
Counsel of Record
BRADLEY J. PEW
BRETT C. GILMORE
TYLER D. CARLTON
FENNEMORE CRAIG, P.C.
2394 E. Camelback Rd.
Suite 600
Phoenix, AZ 85016
602-916-5421
tberg@fennemorelaw.com
Counsel for Petitioners
October 7, 2021
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED FOR REVIEW
1. When a law enforcement officer reasonably
deploys a police K9 to restrain a fleeing suspect known
to have a history of violent crime and believed to be in
possession of a deadly weapon and under the influence
of an illegal stimulant, is the Fourth Amendment
violated when the K9’s handler commands the K9 to
release the suspect within seconds after the suspect is
handcuffed and ceases resisting arrest?
2. Did the Ninth Circuit err when it failed to
consider the totality of the circumstances in assessing
the reasonableness of force used to restrain a suspect
with a known history of violent crime who is actively
resisting arrest and is believed to be in possession of a
deadly weapon and under the influence of an illegal
stimulant?
3. Did the Ninth Circuit violate City and County of
San Francisco v. Sheehan and other binding precedent
when it denied a police officer qualified immunity by
defining clearly established law at too high a level of
generality?

ii
PARTIES TO THE PROCEEDING
The parties to the proceedings before the Ninth
Circuit were Detective Brad Martin, the State of
Arizona, and Carlos Castro. Detective Martin and the
State of Arizona were defendants and appellants below
and are the petitioners in this appeal. Mr. Castro was
the plaintiff and appellee below and is the respondent
to this petition.
There are no publicly held corporations involved in
this proceeding.
STATEMENT OF RELATED PROCEEDINGS
This case arises from the following proceedings:
• Castro v. Martin, et al., No. 20-16009 (9th Cir.)
(memorandum opinion issued May 10, 2021);
and
• Castro v. Arizona Department of Public Safety, et
al., No. CV-18-00753-PHX-SRB (ESW) (order
denying summary judgment filed April 30,
2020).
There are no other proceedings in state or federal
trial or appellate courts directly related to this case.

iii
TABLE OF CONTENTS
QUESTIONS PRESENTED FOR REVIEW . . . . . . . i
PARTIES TO THE PROCEEDING . . . . . . . . . . . . . . ii
STATEMENT OF RELATED PROCEEDINGS . . . . ii
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . v
PETITION FOR A WRIT OF CERTIORARI . . . . . . 1
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 4
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED . . . . . . . . . . . . . . . . . . . . 4
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 5
A. Factual Background . . . . . . . . . . . . . . . . . . . . 5
B. Proceedings Below . . . . . . . . . . . . . . . . . . . . . . 9
REASONS FOR GRANTING THE PETITION . . . 10
I. The Ninth Circuit Ignored Established Supreme
Court Precedent Prohibiting Courts from
Examining Facts in Isolation and Through the
Lens of Hindsight When Evaluating Whether an
Officer’s Conduct Violates the Fourth
Amendment. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
A. The Ninth Circuit Failed to Evaluate the
Totality of the Circumstances from Detective
Martin’s Perspective . . . . . . . . . . . . . . . . . . . 12

iv
B. The Ninth Circuit’s Decision Is Inconsistent
with Decisions from the Fifth, Sixth, and
Eighth Circuits . . . . . . . . . . . . . . . . . . . . . . . 17
II. The Ninth Circuit’s Conclusion that the
Purported Right at Issue is “Clearly
Established” Conflicts with this Court’s
Precedent, including City and County of San
Francisco v. Sheehan, that Prohibits Defining
Clearly Established Rights at Too High a Level
of Generality . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
A. This Court Has Repeatedly Held that Clearly
Established Rights Must Not Be Defined Too
Generally . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
B. No Clearly Established Law Put Detective
Martin on Notice that His Use of Force May
Violate the Fourth Amendment . . . . . . . . . . 25
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32
APPENDIX
Appendix A Memorandum in the United States
Court of Appeals for the Ninth Circuit
(May 10, 2021). . . . . . . . . . . . . . . . App. 1
Appendix B Order in the United States District
Court for the District of Arizona
(April 30, 2020) . . . . . . . . . . . . . . . App. 6

v
TABLE OF AUTHORITIES
CASES
Ashcroft v. al-Kidd,
563 U.S. 731 (2011). . . . . . . . . . . . . . . . . 11, 23, 24
Ashford v. Raby,
951 F.3d 798 (6th Cir. 2020). . . . . . . . . . . . . 19, 31
Bell v. Wolfish,
441 U.S. 520 (1979). . . . . . . . . . . . . . . . . . . . . . . 13
Chew v. Gates,
27 F.3d 1432 (9th Cir. 1994). . . . . . . . . . . . . . . . 28
City and County of San Francisco v. Sheehan,
575 U.S. 600 (2015). . . . . . . . . . . . . . . . . . . passim
City of Escondido v. Emmons,
139 S. Ct. 500 (2019). . . . . . . . . . . . . . . . 22, 26, 32
District of Columbia v. Wesby,
138 S. Ct. 577 (2018). . . . . . . . . . . . . . . . . . . . . . 26
Escobar v. Montee,
895 F.3d 387 (5th Cir. 2018). . . . . . . . . . . . . 18, 31
Garrett v. Athens-Clarke County,
378 F.3d 1274 (11th Cir. 2004). . . . . . . . . . . . . . 16
Graham v. Connor,
490 U.S. 386 (1989). . . . . . . . . . . . . . . . . . . passim
Harlow v. Fitzgerald,
457 U.S. 800 (1982). . . . . . . . . . . . . . . . . . . . . . . 11
Hernandez v. Town of Gilbert,
989 F.3d 739 (2021). . . . . . . . . . . . . . . . . . . passim

vi
Hunter v. Bryant,
502 U.S. 224 (1991). . . . . . . . . . . . . . . . . . . . . . . 11
Kingsley v. Hendrickson,
576 U.S. 389 (2015). . . . . . . . . . . . . . . . . . . . . . . 16
Kisela v. Hughes,
138 S. Ct. 1148 (2018). . . . . . . . . . . . . . . . . passim
Kuha v. City of Minnetonka,
365 F.3d 590 (8th Cir. 2003). . . . . . . . . . 19, 20, 31
Malley v. Briggs,
475 U.S. 335 (1986). . . . . . . . . . . . . . . . . . . . . . . 11
Mendoza v. Block,
27 F.3d 1357 (9th Cir. 1994). . . . . . . . . . . . . . . . 28
Messerschmidt v. Millender,
565 U.S. 535 (2012). . . . . . . . . . . . . . . . . 10, 11, 21
Miller v. Clark County,
340 F.3d 959 (9th Cir. 2003). . . . . . . . . . . . . 30, 31
Mullenix v. Luna,
577 U.S. 7 (2015). . . . . . . . . . . . . . . . . . . 22, 23, 24
Pearson v. Callahan,
555 U.S. 223 (2009). . . . . . . . . . . . . . . . . . . . . . . 11
Plumhoff v. Rickard,
572 U.S. 765 (2014). . . . . . . . . . . . . . . . . . . passim
Scott v. Harris,
550 U.S. 372 (2007). . . . . . . . . . . . . . . . . . . . . 5, 14
Szabla v. City of Brooklyn Park,
486 F.3d 385 (8th Cir. 2007). . . . . . . . . . . . . 19, 20

vii
Tennessee v. Garner,
471 U.S. 1 (1985). . . . . . . . . . . . . . . . . . . . . . . . . 13
United States v. Arvizu,
534 U.S. 266 (2002). . . . . . . . . . . . . . . . . . . . . . . 13
Watkins v. City of Oakland,
145 F.3d 1087 (9th Cir. 1988). . . . . . 10, 26, 29, 30
Wearry v. Cain,
577 U.S. 385 (2016). . . . . . . . . . . . . . . . . . . . . . . 24
White v. Pauly,
137 S. Ct. 548 (2017). . . . . . . . . . . . . . . . . . . 27, 32
Zuress v. City of Newark,
815 F. App’x 1 (6th Cir. 2020) . . . . . . . . 18, 19, 31
CONSTITUTION AND STATUTES
U.S. Const. amend. IV . . . . . . . . . . . . . . . . . . . passim
28 U.S.C. § 1254(1). . . . . . . . . . . . . . . . . . . . . . . . . . . 4
28 U.S.C. § 1331 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
42 U.S.C. § 1983 . . . . . . . . . . . . . . . . . . . . . . . . . . . 4, 9

1
PETITION FOR A WRIT OF CERTIORARI
Plaintiff Carlos Castro (“Castro”) filed this lawsuit
against Petitioners Brad Martin and the State of
Arizona alleging that his Fourth Amendment right to
freedom from excessive force was violated when he was
bitten by a police K9 while resisting arrest. At the time
the dog bite occurred, Castro was a known member of
a dangerous gang, had a violent criminal record, had
absconded from community supervision, had an
outstanding warrant for his arrest, had successfully
resisted a prior effort to arrest him, was wanted in
connection with two violent crimes within the prior
week, and was believed to be in possession of a deadly
weapon while under the influence of
methamphetamine. See Petitioner’s Appendix (“App.”)
12–15. Shortly after midnight, Castro fled from police
when they attempted to execute a search warrant at a
Glendale, Arizona home in order to locate and arrest
him. App. 15.
To evade police, Castro ran through the backyards
of numerous occupied residences and eventually
climbed onto the roof of a home. App. 15–16. Castro did
not comply when officers ordered him down from the
roof and continued to resist officers’ efforts to arrest
him when on the ground. App. 27. Officers attempted
to detain Castro with alternate means, including a
Taser and efforts to physically restrain him (all of
which failed), and warned Castro that a police K9
would be deployed if he continued to resist arrest. App.
22–23. Castro disregarded officers’ warnings and
continued to resist arrest, after which Detective Martin
deployed Storm, his K9 companion, to help detain

2
Castro. App. 22–23, 27. Officers eventually
maneuvered Castro’s hands behind his back and
affixed flexible handcuffs, whereupon Storm complied
with Detective Martin’s order to release Castro. App.
20–21, 23–24. Storm released Castro between twelve
and twenty-six seconds after officers placed flexible
handcuffs on him. App. 23–24.
In evaluating Detective Martin’s claim to qualified
immunity, the Ninth Circuit determined that this case
turned “solely on the 12 to 26 seconds that passed”
between when Castro was handcuffed and Storm
released him. App. 4. In doing so, the Ninth Circuit
ignored this Court’s precedent requiring courts
assessing claims of excessive force to look past the
20/20 vision of hindsight and evaluate the totality of
the circumstances from the perspective of the officer
responding to a tense, rapidly evolving situation. See,
e.g., Graham v. Connor, 490 U.S. 386, 396 (1989). Had
the Ninth Circuit adhered to this established
framework, it would have concluded that Detective
Martin’s response to a dangerous and rapidly evolving
pursuit of Castro was reasonable and did not violate
the Fourth Amendment. Indeed, the Fifth, Sixth, and
Eighth Circuits have addressed similar claims of
excessive force and concluded that no Fourth
Amendment violation occurred under circumstances
similar to those at issue here.
The Ninth Circuit also disregarded this Court’s
binding precedent in concluding that the evidence
“supports a violation of clearly established law.” App.
5. Despite this Court’s repeated admonitions, the Ninth
Circuit yet again relied on inapposite cases to define a

3
“clearly established” right at an impermissibly high
level of generality. See, e.g., City and County of San
Francisco v. Sheehan, 575 U.S. 600, 613 (2015) (“We
have repeatedly told courts—and the Ninth Circuit in
particular—not to define clearly established law at a
high level of generality.” (emphasis added)). The Ninth
Circuit’s decision is based on case law stating “that an
officer cannot direct a police dog to continue biting a
suspect who has fully surrendered and is under the
officer’s control,” App. 4–5, but no officer directed
Storm to continue biting Castro after he was
handcuffed, which shows that the Ninth Circuit’s
“clearly established right” is inapplicable here.
Moreover, Ninth Circuit cases, including a case upon
which the Ninth Circuit relied here, contradict the
notion that the officers here violated a “clearly
established” right. See Hernandez v. Town of Gilbert,
989 F.3d 739, 746–47 (2021) (concluding that the
duration of a K9 bite did not violate a clearly
established right when a suspect fled from police,
resisted arrest, and failed to respond to warnings and
escalating control techniques).
Detective Martin and the State of Arizona
respectfully petition for a writ of certiorari to review
the decision and judgment of the United States Court
of Appeals for the Ninth Circuit in this case. The Court
should grant this petition on all three questions
presented, or, alternatively, summarily reverse the
Ninth Circuit’s decision.

4
OPINIONS BELOW
The memorandum decision of the United States
Court of Appeals for the Ninth Circuit, reproduced at
App. 1–5, was not published but is available at 854 F.
App’x 888 (9th Cir. 2021). The order of the United
States District Court for the District of Arizona
denying Petitioners’ motion for summary judgment was
not published, but is reproduced at App. 6–37 and is
available at 2020 WL 9600817.
JURISDICTION
The Ninth Circuit issued its memorandum decision
on May 10, 2021. This Court has jurisdiction under 28
U.S.C. § 1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
Castro brought the underlying action pursuant to 42
U.S.C. § 1983, which states:
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any
State or Territory or the District of Columbia,
subjects, or causes to be subjected, any citizen of
the United States or other person within the
jurisdiction thereof to the deprivation of any
rights, privileges, or immunities secured by the
Constitution and laws, shall be liable to the
party injured in an action at law, suit in equity,
or other proper proceeding for redress, except
that in any action brought against a judicial
officer for an act or omission taken in such
officer’s judicial capacity, injunctive relief shall

5
not be granted unless a declaratory decree was
violated or declaratory relief was unavailable.
For the purposes of this section, any Act of
Congress applicable exclusively to the District of
Columbia shall be considered to be a statute of
the District of Columbia.
Castro alleges that the acts in question violated his
right to be free from excessive force under the Fourth
Amendment to the United States Constitution, which
provides:
The right of the people to be secure in their
persons, houses, papers, and effects, against
unreasonable searches and seizures, shall not be
violated, and no warrants shall issue, but upon
probable cause, supported by oath or
affirmation, and particularly describing the
place to be searched, and the persons or things
to be seized.
STATEMENT OF THE CASE
A. Factual Background
In March 2017, Castro was a known member of
street gang called “Dog Town.” App. 12.1 He had
multiple felony convictions, including convictions for
aggravated assault on a law enforcement officer, theft

1

These facts are taken from the district court’s Order. Where the
parties’ versions of the events differed, the district court properly
accepted Castro’s version of the facts as true for purposes of
summary judgment, except where Castro’s version of the facts
conflicted with video evidence. App. 10–11; Scott v. Harris, 550
U.S. 372, 380–81 (2007).

6
of means of transportation, theft, and possession of
drug paraphernalia. Id. After Castro’s release from
prison in 2016, he absconded from community
supervision, resulting in a warrant for his arrest. Id. In
December 2016, Castro resisted arrest and successfully
fled from police as they attempted to pull him over. Id.
After that incident, Castro was also wanted for
resisting arrest, a Class 6 felony. Id.
On March 3, 2017, Castro was at the home of his
then-girlfriend’s parents when an argument ensued. Id.
Castro, though prohibited by law from possessing a
firearm, fired a total of four shots into the air from a
handgun as a result of the argument. Id. Police were
called to the scene following the shooting, and Castro
became wanted for three additional felonies:
aggravated assault with a deadly weapon, misconduct
involving weapons, and endangerment. App. 12–13.
Castro later pleaded guilty to aggravated assault with
a deadly weapon. App. 13.
On March 10, 2017, the Arizona Department of
Public Safety’s Gang & Immigration Intelligence Team
Enforcement Mission (GIITEM) was informed that
Castro committed a strong-arm robbery and assaulted
a store employee at a department store in Glendale,
Arizona earlier that same day. Id. Based on the March
3, 2017 aggravated assault and the March 10, 2017
robbery and assault, police obtained a search warrant
to locate Castro by means of his cell phone. Id. Officers
tracked Castro’s phone to a home in Glendale, Arizona,
and Glendale police officers confirmed that Castro was
at that home. App. 13–14. Detectives then obtained a
warrant to search the home. App. 14.

7
In light of Castro’s history of violent crime and the
nature of the crimes he was suspected of committing,
and also because Castro was believed to be armed, the
Department of Public Safety’s Special Weapons and
Tactics (SWAT) team led the way in executing the
warrant. Id. A GIITEM detective briefed officers,
including Detective Martin, about Castro’s history and
the potential for violence. Id. Martin was informed that
Castro was a documented gang member, had prior
felony convictions including aggravated assault, had
absconded from community supervision after being
released from prison, had an outstanding arrest
warrant, was suspected of committing aggravated
assault with a firearm the week prior, and was
suspected of committing strong-arm robbery and
assault earlier that day. Id.
Police executed the search warrant shortly after
midnight on March 11, 2017. App. 15. Castro’s
girlfriend warned him that police were coming. Id.
Castro looked out the window and saw SWAT officers
throw flash grenades. Id. He then fled out of the back
door of the house. Id. Castro climbed over several
fences into neighboring yards, where he ultimately hid
in a shed. Id. Castro could hear police walking past the
shed and the sound of a helicopter. Id.
Officers set up a perimeter to prevent Castro’s
escape. Id. Martin and his K9 companion, Storm,
searched the house and the backyards of nearby homes.
Id. At each location, Martin gave a warning that he
was deploying a K9, stating “Come to the sound of my
voice now. If you do not, a K9 will be deployed and he

8
will bite you.” Id. Martin gave this warning eight
times. Id.
Martin
was
informed
that
suspected
methamphetamines, a stimulant, were found inside the
house from which Castro fled. Id. Accordingly, Martin
believed that Castro might be under the influence of
methamphetamines. Id.
After about ten minutes hiding in the shed, Castro
climbed a nearby ladder onto the roof of a house. App.
15–16. The parties disputed what happened after
Castro climbed onto the roof, but the district court
observed the following from body camera video footage
provided by the parties. In the video, Castro is first
seen sitting on the roof with his legs hanging over the
edge. App. 22–23. Officers ordered Castro to come down
from the roof. App. 23. Castro said “I’m done” while
pulling his knees and feet onto the roof and holding his
hands out, but did not move to come down. Id. Officers
fired a Taser, which hit Castro. Id. Castro again
screamed “I’m done.” Id. Someone yelled “come down
and get on your face or you’re gonna get bit.” Id. Castro
did not comply. Id.
Officers fired a second Taser and Castro fell from
the roof. Id. Four or five officers surrounded Castro,
and two officers with K9 units rushed in as well. Id.
Approximately forty-three seconds into the video,
Castro is seen face down on the ground with his right
arm outstretched and his left arm under his torso. Id.
A few seconds later, a K9 unit bit Castro’s leg. Id.
Officers told Castro to “stop resisting” and “stop
fighting.” Id. Approximately thirty-four seconds after
the K9 unit bit Castro, someone announced that Castro

9
was handcuffed, at which point Castro appeared to be
lying still. App. 23–24. The K9 is seen biting Castro
twelve seconds after the announcement that Castro
was handcuffed. App. 24. The K9 is subsequently
obscured from view until approximately twenty-six
seconds after the announcement that Castro was
handcuffed, at which point the K9 was no longer biting
Castro. Id.
B. Proceedings Below
Castro sued Detective Martin and the State of
Arizona (together, Defendants) in the United States
District Court for the District of Arizona in relation to
the injuries sustained as a result of the dog bite. Castro
asserted a Fourth Amendment excessive force claim
against Detective Martin pursuant to 42 U.S.C. § 1983.
App. 6–7.2 Castro asserted vicarious liability state law
claims against the State of Arizona for battery,
intentional infliction of emotional distress, and gross
negligence. App. 7. Defendants moved for summary
judgment, asserting qualified immunity.
The district court denied Defendants’ motion. It
determined that no reasonable jury could find that
Castro was attempting to comply with police orders to
come down from the roof, and that the video footage
demonstrated that Castro continued to resist officers
before the K9 was deployed. App. 27. But because the
video showed that the K9 continued to bite Castro’s leg
for at least twelve seconds after Castro was handcuffed,
the district court determined that there was “a genuine
2

The district court had jurisdiction over Castro’s § 1983 claim
pursuant to 28 U.S.C. § 1331.

10
issue of material fact whether the force used was
greater than reasonable under the circumstances.”
App. 28. The district court also determined that, at the
time of the events in question, it was “clearly
established that using unnecessary force against a
handcuffed, non-resistant arrestee could amount to
excessive force.” App. 30.
The Ninth Circuit affirmed. In a short
memorandum decision, it held that this case turned
“solely on the 12 to 26 seconds that passed between
when Castro was ‘handcuffed and subdued’ and when
the K9 released its bite.” App. 4. With no elaboration or
consideration of the events preceding the dog bite, the
Ninth Circuit summarily concluded that the evidence,
viewed in Castro’s favor, supported a violation of
clearly established law. App. 5. As support, the Ninth
Circuit cited Hernandez v. Town of Gilbert, 989 F.3d
739, 745 (9th Cir. 2021), for the proposition that “an
officer cannot direct a police dog to continue biting a
suspect who has fully surrendered and is under the
officer’s control.” App. 4–5. The Ninth Circuit also cited
Watkins v. City of Oakland, 145 F.3d 1087, 1090, 1093
(9th Cir. 1988), for the proposition that an “excessive
duration of [a K9] bite . . . could constitute excessive
force.” App. 5.
REASONS FOR GRANTING THE PETITION
The doctrine of qualified immunity protects
government officials, such as police officers, from
liability for civil damages when “their conduct does not
violate clearly established statutory or constitutional
rights of which a reasonable person would have
known.” Messerschmidt v. Millender, 565 U.S. 535, 546

11
(2012) (quoting Pearson v. Callahan, 555 U.S. 223, 231
(2009)). This Court has made clear that qualified
immunity protects “all but the plainly incompetent or
those who knowingly violate the law.” Id. (quoting
Ashcroft v. al-Kidd, 563 U.S. 731, 743 (2011)); Malley
v. Briggs, 475 U.S. 335, 341 (1986); see also
Messerschmidt, 565 U.S. at 546 (holding that qualified
immunity “gives government officials breathing room
to make reasonable but mistaken judgments”).
In assessing a claim of qualified immunity, courts
consider (1) whether the official violated a statutory or
constitutional right, and (2) whether that right was
“clearly established” at the time the challenged conduct
occurred. Ashcroft, 563 U.S. at 735 (citing Harlow v.
Fitzgerald, 457 U.S. 800, 818 (1982)). Because qualified
immunity is an immunity from suit and not merely a
defense to liability, this Court has “repeatedly stressed
the importance of resolving immunity questions at the
earliest possible stage in litigation.” Pearson, 555 U.S.
at 231–32, 237 (quoting Hunter v. Bryant, 502 U.S. 224,
227 (1991) (per curiam)). To this end, courts may
consider the two prongs in any order, and immunity
must be granted where the challenged conduct does not
amount to a violation of any statutory or constitutional
right or where the right alleged to be violated is not
clearly established. Id. at 236; Plumhoff v. Rickard, 572
U.S. 765, 778–79 (2014).
Review of the Ninth Circuit’s decision is necessary
to compel compliance with clear precedent from this
Court holding that whether an officer’s actions are
objectively reasonable depends on the totality of the
circumstances assessed from the perspective of an

12
officer responding to dangerous and evolving
situations. In concluding that this appeal turned “solely
on the 12 to 26 seconds that passed” between when
Castro was handcuffed and Storm released his bite, the
Ninth Circuit ignored clear precedent prohibiting
courts from examining facts in isolation and through
the lens of hindsight. E.g., Graham, 490 U.S. at 396.
Review is also necessary because the Ninth Circuit
once again flouted repeated direction from this Court to
not define the “clearly established” right too generally.
Detective Martin is entitled to qualified immunity
because no “existing precedent ‘squarely governs’ the
specific facts at issue” in this case. E.g., Kisela v.
Hughes, 138 S. Ct. 1148, 1153 (2018).
I. The Ninth Circuit Ignored Established
Supreme Court Precedent Prohibiting Courts
from Examining Facts in Isolation and
Through the Lens of Hindsight When
Evaluating Whether an Officer’s Conduct
Violates the Fourth Amendment.
A. The Ninth Circuit Failed to Evaluate the
Totality of the Circumstances from
Detective Martin’s Perspective.
The Ninth Circuit’s decision is flatly wrong because
it disregards this Court’s established framework for
analyzing claims of excessive force under the Fourth
Amendment. A claim that law enforcement officers
used excessive force to effect a seizure is governed by
the Fourth Amendment’s “objective reasonableness”
standard, which “requires a careful balancing of ‘the
nature and quality of the intrusion on the individual’s

13
Fourth Amendment interests’ against the
countervailing governmental interests at stake.”
Graham, 490 U.S. at 396 (quoting Tennessee v. Garner,
471 U.S. 1, 8 (1985)); Plumhoff, 572 U.S. at 774. The
objective reasonableness test “is not capable of precise
definition or mechanical application,” Bell v. Wolfish,
441 U.S. 520, 559 (1979), and “its proper application
requires careful attention to the facts and
circumstances of each particular case,” Graham, 490
U.S. at 396. This includes consideration of “the severity
of the crime at issue, whether the suspect poses an
immediate threat to the safety of the officers or others,
and whether he is actively resisting arrest or
attempting to evade arrest by flight.” Id.
Two key aspects of the objective reasonableness
standard protect against judicial second-guessing of
heat-of-the-moment police-work in the tranquility of a
courtroom. First, “[t]he inquiry requires analyzing the
totality of the circumstances,” Plumhoff, 572 U.S. at
774, rather than evaluating “factors in isolation,”
United States v. Arvizu, 534 U.S. 266, 274 (2002).
Second, the conduct in question “must be judged from
the perspective of a reasonable officer on the scene,
rather than with the 20/20 vision of hindsight.”
Graham, 490 U.S. at 396. This “allow[s] for the fact
that police officers are often forced to make split-second
judgments—in circumstances that are tense, uncertain
and rapidly evolving—about the amount of force that is
necessary in a particular situation.” Id. at 397; accord,
e.g., Plumhoff, 572 U.S. at 775 (same).
At the summary judgment stage, once the court has
“determined the relevant set of facts and drawn all

14
inferences in favor of the nonmoving party to the extent
supportable by the record,” whether an officer’s actions
were objectively reasonable is a pure question of law.
Scott v. Harris, 550 U.S. 372, 381 n.8 (2007); see also
Plumhoff, 572 U.S. at 773 (holding that whether
officers’ conduct violated the Fourth Amendment was
a question of law). The following are either undisputed
facts or findings of fact the district court made after
reviewing the body camera video of the incident:
• Castro was a known member of a street gang
and had multiple prior felony convictions,
including a conviction for an aggravated assault
on a law enforcement officer. App. 12, 14.
• Castro absconded from community supervision
following his release from prison in 2016,
resulting in a warrant for his arrest. App. 12.
• Castro previously resisted arrest and
successfully fled from police in December 2016.
Id.
• Castro was wanted for an aggravated assault
with a deadly weapon involving firing a handgun
several times just one week prior to the events
in question. App. 12–13.
• Castro was suspected of committing a strongarm robbery and assaulting an employee at a
department store within twenty-four hours prior
to the events in question. App. 13.
• Castro was suspected of being under the
influence of methamphetamines during the
events in question. App. 15.

15
• When police executed the residential search
warrant just after midnight on March 11, 2021,
Castro fled from the house and began evading
police by climbing fences into neighboring yards,
where he hid from police in a shed. Id.
• After leaving the shed, Castro climbed onto the
roof of a house and sat down on the roof’s edge.
App. 15–16. The district court found that, based
on the video footage, no reasonable jury could
conclude that Castro was attempting to comply
with police orders to come down from the roof.
App. 27.
• Castro continued to resist officers after falling
down from the roof but before Detective Martin
deployed Storm. Id.
• Storm released his bite within twelve to twentysix seconds after Castro was handcuffed. App.
23–24.
Because courts must analyze the totality of
circumstances, each of the foregoing facts is relevant to
whether the use of force against Castro was reasonable.
See Graham, 490 U.S. at 396 (holding that the objective
reasonableness standard requires examining the
severity of the crime at issue, the threat the suspect
poses, and whether the suspect is actively resisting
arrest or attempting to flee). The Ninth Circuit
disregarded all but one of these facts, however, and
concluded that “this appeal turns solely on the 12 to 26
seconds that passed between when Castro was
‘handcuffed and subdued’ and when the K9 released its
bite.” App. 4 (emphasis added). The Ninth Circuit also

16
stated that it did not “consider [the] parties’ arguments
regarding whether the initiation of the K9 bite
constituted excessive force,” App. 4 n.3, which
underscores that its singular focus did not take into
account the “totality of the circumstances,” Plumhoff,
572 U.S. at 774. The Ninth Circuit then concluded, in
cursory fashion, that “[t]he evidence . . . supports a
violation of clearly established law.” App. 5.
The objective reasonableness inquiry requires
viewing all relevant factors from Detective Martin’s
perspective at the time of the incident. See, e.g.,
Kingsley v. Hendrickson, 576 U.S. 389, 399 (2015)
(“[W]e have stressed that a court must judge the
reasonableness of the force used from the perspective
and with the knowledge of the defendant officer.”); see
also Garrett v. Athens-Clarke County, 378 F.3d 1274
(11th Cir. 2004) (“In analyzing whether excessive force
was used, courts must look at the totality of the
circumstances: not just a small slice of the acts that
happened at the tail of the story.”). Viewing the totality
of the circumstances, Detective Martin’s use of force
was reasonable to ensure that Castro was fully
subdued and that any potential threat to officers or
bystanders was eliminated before Storm disengaged. At
the time he ordered Storm to engage Castro, Detective
Martin knew that Castro was a member of a violent
gang, had a history of violent felony convictions, had
absconded from community supervision, was suspected
of two recent violent assaults including one that
involved firing a handgun, had a history of fleeing
police, and was at that moment actively resisting
arrest. He was also informed that Castro may be armed
and under the influence of illegal stimulants. Once

17
Detective Martin was sure that Castro was
subdued—mere seconds after Castro was handcuffed—
he ordered Strom to release Castro. App. 20–21. The
twelve to twenty-six second window between when
Castro was handcuffed and when Storm disengaged is
well within the time a reasonable officer in Detective
Martin’s position would need to properly evaluate and
react to the rapidly changing circumstances.
In view of Castro’s history of violence, fleeing police,
and resisting arrest (which Castro replicated on the
night in question), and considering the rapidly
developing circumstances surrounding his pursuit, it
was reasonable that Storm remained engaged with
Castro for no longer (and likely shorter) than twentysix seconds after Castro was handcuffed. The Ninth
Circuit erred in concluding otherwise.
B. The
Ninth
Circuit’s
Decision
Is
Inconsistent with Decisions from the Fifth,
Sixth, and Eighth Circuits.
The Ninth Circuit failed to evaluate the totality of
the circumstances in assessing whether Detective
Martin’s actions would constitute a violation of the
Fourth Amendment. In doing so, the Ninth Circuit
parted ways not only with clear precedent from this
Court, but also with decisions in the Fifth, Sixth, and
Eighth Circuits addressing analogous claims and
concluding that no Fourth Amendment violation
occurred. In each of the cases described below, the
court rejected a claim that the duration of a K9 bite
amounted to an excessive use of force based on the
totality of the circumstances surrounding the bite.

18
Fifth Circuit. In Escobar v. Montee, the Fifth
Circuit concluded that no Fourth Amendment violation
occurred when police deployed a K9 to arrest a suspect
who assaulted his wife and fled from police through a
residential neighborhood. 895 F.3d 387, 390–91 (5th
Cir. 2018). As with Castro here, the suspect in Escobar
claimed he was not resisting arrest and challenged
both the initiation and the duration of the bite, which
lasted approximately one minute. Id. at 391, 394. The
district court ruled that a reasonable jury could find
that the officer allowed the K9 to continue biting the
suspect “after it would have been apparent ‘that [the
suspect] was no longer armed and was not resisting
arrest.’” Id. at 394. Disagreeing, the Fifth Circuit
concluded that the K9’s bite did not violate the Fourth
Amendment and rejected the district court’s ruling
because it “overlook[ed] several key facts.” Id. Central
to the Fifth Circuit’s conclusion was the fact that, as
with Castro here, the suspect actively fled from police
at night and hid from police in a residential backyard,
and officers had been warned that the plaintiff had a
weapon and would resist arrest. Id.
Sixth Circuit. In Zuress v. City of Newark, the
Sixth Circuit concluded that no Fourth Amendment
violation occurred when a K9 bit and held a suspect
who failed to comply with officers’ commands during
her arrest. 815 F. App’x 1, 3–4, 5 (6th Cir. 2020). The
suspect challenged both the bite and its duration,
which lasted for over twenty seconds after she had been
subdued. Id. at 4. The Sixth Circuit affirmed the
district court’s grant of qualified immunity to the K9’s
handler, concluding that no Fourth Amendment
violation occurred in light of the fact that the suspect

19
fled from police in a car and disobeyed officers’
commands, and officers were uncertain whether the
suspect was armed. Id. at 5, 7–8. The court reasoned
that although the officer waited eleven seconds after
the suspect was subdued before directing the K9 to
release its bite, “[s]uch a short amount of time . . . was
not the kind of delay that ‘rise[s] to the level of an
unreasonable seizure.’” Id. at 7 (alteration in original)
(citation omitted). Moreover, the court concluded that
no Fourth Amendment violation occurred even though
an additional twenty-four seconds elapsed while the
officer struggled to remove the K9 from the suspect
after the K9 disregarded the officer’s command to
release the bite. Id. at 7–8. Because the court found no
Fourth Amendment violation, it concluded that the
district court correctly granted summary judgment to
the officer. Id. at 8.; see also Ashford v. Raby, 951 F.3d
798, 804 (6th Cir. 2020) (rejecting a claim that a short
delay in removing a K9 constituted a Fourth
Amendment violation; “At most, one could argue that
[the officer] could have called the dog off a second or
two sooner. But that kind of fine-sliced judgment call
amid ‘tense, uncertain, and rapidly evolving’
circumstances just isn’t the stuff of a Fourth
Amendment violation.”).
Eighth Circuit. In Kuha v. City of Minnetonka, the
Eighth Circuit concluded that there was no Fourth
Amendment violation when police deployed a K9 to
help seize a suspect who fled during an early morning
traffic stop for a minor violation. 365 F.3d 590, 600–01
(8th Cir. 2003), abrogated on other grounds by Szabla
v. City of Brooklyn Park, 486 F.3d 385 (8th Cir. 2007).
The K9’s bite lasted approximately ten to fifteen

20
seconds while officers searched the area to ensure the
suspect was not armed. Id. at 601. Even though officers
had not seen a gun, the court concluded that, “given the
totality of the circumstances, [officers] were reasonably
wary of what they might encounter when they found
[the suspect], and reasonably concerned for their
safety.” Id. at 600–01. In rejecting the suspect’s
argument that officers should have realized he did not
pose a threat, the court emphasized that this was “not
a case where the officers [were] accused of siccing a
police dog on a manifestly unarmed and compliant
suspect.” Id.
Viewing the circumstances surrounding Castro’s
flight and subsequent arrest through the lens of the
foregoing cases, it is beyond dispute that the quantum
of force Detective Martin used to seize Castro was
objectively reasonable. Castro—a member of a violent
gang with a documented history of violent crime and
fleeing police—fled from police in the middle of the
night by running through the yards of occupied homes,
repeatedly disobeyed officers’ commands, and
disregarded warnings that police would deploy a K9 if
he continued to resist arrest. Given Castro’s history of
violent felony convictions and prior efforts to resist
arrest, and in view of the ineffectiveness of officers’
escalating measures to subdue Castro, Detective
Martin reasonably believed that Castro may be armed
and was a threat to the safety of officers and other
bystanders. As for the bite’s duration, considering
Castro’s failure to comply with commands, the
potential threat Castro posed to officers and others, his
proximity to occupied residences, and the fact that
Castro had successfully evaded police just a few

21
months prior, it was reasonable that Storm remained
engaged with Castro for a short period of time after
Castro was handcuffed while Detective Martin
evaluated the rapidly changing circumstances and
ordered Storm to disengage.
Review is therefore necessary because the Ninth
Circuit’s decision puts officers such as Detective Martin
in an untenable position. Determining whether to
engage a police dog requires officers to evaluate
dangerous and quickly escalating circumstances.
Officers must decide, under tense and uncertain
circumstances, what threat a suspect poses to officers
and bystanders and how to best alleviate that threat.
Graham, 490 U.S. at 396–97. The decisions in the
Fifth, Sixth, and Eighth Circuits recognize the
circumstances under which officers must make these
judgment calls, but the Ninth Circuit’s decision
subjects officers to liability if a court concludes, with
the benefit of 20/20 hindsight, that a properly initiated
K9 bite lasted a few seconds longer than the court
would have preferred. That standard fails to afford
officers the “breathing room” needed to carry out their
jobs safely. See Messerschmidt, 565 U.S. at 546. This
Court should grant review to correct the Ninth Circuit’s
departure from clearly established precedent and the
decisions of other circuits.

22
II. The Ninth Circuit’s Conclusion that the
Purported Right at Issue is “Clearly
Established” Conflicts with this Court’s
Precedent, including City and County of San
Francisco v. Sheehan, that Prohibits Defining
Clearly Established Rights at Too High a Level
of Generality.
A. This Court Has Repeatedly Held that
Clearly Established Rights Must Not Be
Defined Too Generally.
The Ninth Circuit erred in disregarding this Court’s
repeated admonitions against rejecting claims of
qualified immunity when no case law squarely puts the
unconstitutionality of an officer’s actions beyond
debate. “Qualified immunity attaches when an official’s
conduct does not violate clearly established statutory or
constitutional rights of which a reasonable person
would have known.” Kisela, 138 S. Ct. at 1152 (citation
omitted). Although there does not need to be “a case
directly on point for a right to be clearly established,
existing precedent must have placed the statutory or
constitutional question beyond debate.” Id. (citation
omitted). Thus, “immunity protects all but the plainly
incompetent or those who knowingly violate the law.”
Id. (citation omitted).
The dispositive question in this aspect of the
qualified immunity analysis is “whether the violative
nature of particular conduct is clearly established.”
Mullenix v. Luna, 577 U.S. 7, 12 (2015) (per curiam)
(citation omitted); City of Escondido v. Emmons, 139 S.
Ct. 500, 504 (2019) (per curiam) (“[E]xisting precedent
must place the lawfulness of the particular [action]

23
beyond debate.” (second alteration in original) (citation
omitted)). Consequently, the Supreme Court has
“repeatedly told courts—and the Ninth Circuit in
particular—not to define clearly established law at a
high level of generality.” Sheehan, 575 U.S. at 613
(emphasis added) (quoting Ashcroft, 563 U.S. at 742);
see also Kisela, 138 S. Ct. at 1152 (repeating the
admonishment directed at the Ninth Circuit in
Sheehan).
This Court’s admonition toward “[s]pecificity is
especially important in the Fourth Amendment
context, where the Court has recognized that it is
sometimes difficult for an officer to determine how the
relevant legal doctrine . . . will apply to the factual
situation the officer confronts.” Kisela, 138 S. Ct. at
1152 (quoting Mullenix, 577 U.S. at 13). The result in
an excessive force case “depends very much on the facts
of each case,” and therefore, “officers are entitled to
qualified immunity unless existing precedent ‘squarely
governs’ the specific facts at issue.” Id. (quoting
Mullenix, 577 U.S. at 13). Indeed, because “[t]he
Constitution is not blind to ‘the fact that police officers
are often forced to make split-second judgments,’”
Sheehan, 575 U.S. at 612 (quoting Plumhoff, 572 U.S.
at 775), what matters is whether the police “had
sufficient reason to believe that their conduct was
justified,” id. at 617.
“Qualified immunity is no immunity at all if ‘clearly
established’ law can simply be defined as the right to
be free from unreasonable searches and seizures.” Id.
at 613. Accordingly, an officer does not “violate[] a
clearly established right unless the right’s contours

24
were sufficiently definite that any reasonable official in
the defendant’s shoes would have understood that he
was violating it.” Plumhoff, 572 U.S. at 778–79; see also
Kisela, 138 S. Ct. at 1153. In other words, the officer
must have notice that a “specific use of force is
unlawful,” which requires precedent based on “similar
facts” that “help[s] move a case beyond the otherwise
‘hazy border between excessive and acceptable force.’”
Kisela, 138 S. Ct. at 1153 (quoting Mullenix, 577 U.S.
at 19). This is an “exacting standard [that] gives
government officials breathing room to make
reasonable but mistaken judgments.” Sheehan, 575
U.S. at 611 (cleaned up) (quoting Ashcroft, 563 U.S. at
743).
The Ninth Circuit disregarded these principles, and
this Court’s review is necessary to achieve a result that
aligns with established precedent and recognizes—as
the Constitution does—that “police officers are often
forced to make split-second judgments.” Id. at 612
(quoting Plumhoff, 572 U.S. at 775). Indeed, this Court
“often corrects lower courts when they wrongly subject
individual officers to liability.” Id. at 611 n.3 (collecting
cases); see also Wearry v. Cain, 577 U.S. 385, 394–95
(2016) (per curiam) (“[T]he Court has not shied away
from summarily deciding fact-intensive cases where, as
here, lower courts have egregiously misapplied settled
law.”). Contrary to the Ninth Circuit’s conclusion,
summary judgment should be granted in Detective
Martin’s favor because no case demonstrates that he
violated clearly established law.

25
B. No Clearly Established Law Put Detective
Martin on Notice that His Use of Force May
Violate the Fourth Amendment.
At issue is whether Detective Martin violated
clearly established law when he ordered Storm to
disengage mere seconds after officers handcuffed
Castro—a non-compliant, dangerous suspect whom
Martin reasonably suspected was armed and under the
influence of methamphetamine. App. 12–15; Sheehan,
575 U.S. at 617 (reversing the denial of qualified
immunity when, “[c]onsidering the specific situation
confronting [police] they had sufficient reason to
believe that their conduct was justified”). The Ninth
Circuit did not analyze the specific factual context with
which Detective Martin was confronted in evaluating
whether he violated clearly established law. App. 4–5.
Instead, the court cited two of its decisions for the
proposition that “an officer cannot direct a police dog to
continue biting a suspect who has fully surrendered” or
allow a bite to continue for an excessive duration when
the suspect is “obviously helpless.” Id. It then
concluded, in cursory fashion, that the evidence
“supports a violation of clearly established law.” App.
5.
As a threshold matter, the Ninth Circuit
disregarded its obligation to define the clearly
established right at issue, opting instead to cite
inapposite cases that do not address the specific
circumstances at issue here. App. 5. Properly defining
the right at issue is critical because an “officer ‘cannot
be said to have violated a clearly established right
unless the right’s contours [are] sufficiently definite.’”

26
Sheehan, 575 U.S. at 611 (quoting Plumhoff, 572 U.S.
at 778–79); Kisela, 138 S. Ct. at 1153 (“[P]olice officers
are entitled to qualified immunity unless existing
precedent ‘squarely governs’ the specific facts at
issue.”). The Ninth Circuit did not, however, provide
any case that squarely governs the issue at
hand—whether a police K9 must simultaneously
disengage the very moment a violent, resistant, and
formerly fleeing suspect is handcuffed.
To support its conclusion, the Ninth Circuit cited
Hernandez v. Town of Gilbert, 898 F.3d 739 (9th Cir.
2021), and Watkins v. City of Oakland, 145 F.3d 1087
(9th Cir. 1998). Assuming circuit-level case law is
relevant in assessing whether the law was clearly
established for purposes of qualified immunity,3 neither
Hernandez nor Watkins place the constitutionality of
Detective Martin’s actions “beyond debate.” Hernandez
is readily distinguishable from the present case and did
not put Detective Martin on notice that his actions
violated the Fourth Amendment.4 There, officers
3

This Court has not yet decided what precedents, aside from its
own, qualify as controlling authority for purposes of qualified
immunity. District of Columbia v. Wesby, 138 S. Ct. 577, 591 n.8
(2018); Emmons, 139 S. Ct. at 503.

4

Of course, Hernandez itself could not have put Detective Martin
on notice that his actions may have violated the Fourth
Amendment because it was issued in 2021—years after the events
at issue. See Kisela, 138 S. Ct. at 1154 (“[A] reasonable officer is
not required to foresee judicial decisions that do not yet exist in
instances where the requirements of the Fourth Amendment are
far from obvious.”). The Ninth Circuit appears to have relied
on Hernandez to the extent it purports to describe the law as of
2016. App. 5. As described herein, however, neither Hernandez nor

27
directed a K9 to bite a criminal suspect following a
police chase when the suspect refused to exit his car
and resisted lesser force employed by officers to arrest
him. Hernandez, 989 F.3d at 741. The Ninth Circuit
affirmed the district court’s grant of qualified immunity
because “no clearly established law governed the
reasonableness of using a canine to subdue a
noncompliant suspect who resisted other types of force
and refused to surrender.” Id. Far from putting
Detective Martin on notice that his conduct was illegal,
Hernandez supports a finding that the use of force
against Castro was reasonable because he also resisted
other types of force and refused to surrender.
Ignoring the factual context in Hernandez, the
Ninth Circuit concluded that the case placed the
constitutionality of Detective Martin’s actions beyond
debate based on one sentence in that opinion stating
that “an officer cannot direct a police dog to continue
biting a suspect who has fully surrendered and is under
the officer’s control.” App. 4–5. Clearly established law
cannot be based on a general proposition such as this
one. Rather, the plaintiff must “identify a case where
an officer acting under similar circumstances as Officer
[Martin] was held to have violated the Fourth
Amendment.” White v. Pauly, 137 S. Ct. 548, 552 (2017)
(per curiam). Thus, Hernandez is simply unhelpful here
because the court in that case determined that the
officer did not violate clearly established law. 989 F.3d
at 745–47.

the cases cited therein address the factual circumstances at issue
here. Hernandez is therefore inapposite.

28
Not only is the broad proposition that an officer
“cannot direct a police dog to continue biting a suspect
who has fully surrendered” too general to put Detective
Martin on notice that his conduct may have violated
the Fourth Amendment, it is counterfactual to what
occurred in this case. Detective Martin did not direct
Storm to bite a suspect who had fully surrendered. He
directed Storm to bite a suspect that the district court
determined had not yet surrendered, and ordered
Storm to release his bite after he determined that
Castro was subdued. The broad statement that an
officer “cannot direct a police dog to continue biting a
suspect who has fully surrendered” sheds no light on
whether the timeframe in which Detective Martin
removed Storm was reasonable. Hernandez does not
support a conclusion that Detective Martin should have
released Storm any sooner than he did.5

5

In Hernandez, the Ninth Circuit cited Mendoza v. Block, 27 F.3d
1357 (9th Cir. 1994), a case relied on by the district court. App. 30.
Mendoza offers no help to Castro. The court there merely stated
that the use of a dog could constitute excessive force—a general
proposition that gave Detective Martin no notice that this dog bite
may constitute excessive force. Mendoza, 27 F.3d at 1362. The
Ninth Circuit subsequently explained the limitation in Mendoza’s
holding that use of a dog could constitute excessive force,
explaining that it is “limited to the proposition that some uses of
dogs will in particular instances violate clearly established law.”
Chew v. Gates, 27 F.3d 1432, 1448 (9th Cir. 1994) (emphasis
added). Moreover, in Mendoza the court concluded that the use of
a police dog was reasonable when the dog was engaged after a
suspect fled from police following a bank robbery, officers believed
the suspect was armed, the suspect hid from officers on private
property, and the suspect ignored warnings that he would be
bitten if he did not surrender Id. at 1362–63. Accordingly, Mendoza
does not supply any clearly established law that Detective Martin

29
The Ninth Circuit’s reliance on Watkins (a case
cited in Hernandez) is similarly misplaced. There, the
defendant officer used a canine to locate a suspect
while responding to a silent alarm at a warehouse.
Watkins, 145 F.3d at 1090. Prior to releasing the dog,
the officer yelled that he would release the dog and
that it would bite the suspect if he did not surrender,
but the suspect indicated he did not hear the warning.
Id. After finding the suspect, the canine bit him, and
the officer “did not call [the dog] off” but instead
“ordered [the suspect] to show his hands.” Id. The
suspect explained that he could not comply because he
“was recoiling from the dog’s bite,” but the officer did
not call off the dog until the suspect complied, which
was estimated to be at least ten to fifteen seconds. Id.
The court determined that clearly established law
prohibited the “excessive duration of the bite and
improper encouragement of a continuation of the
attack” against a suspect whom the officer had no
reason to suspect was armed or otherwise dangerous.
Id. (emphasis added).
The factual distinctions between this case and
Watkins “leap from the page.” Sheehan, 575 U.S. at
614. In Watkins, there was no evidence that the suspect
was armed or dangerous, and the officer knew nothing
about the suspect. 145 F.3d at 1090. In contrast, here,
Detective Martin knew Castro had a lengthy criminal
history—which included an armed assault a week
before, a prior conviction for assaulting a police officer,
is alleged to have violated; rather, it supports a finding that
Detective Martin’s actions were reasonable under the
circumstances.

30
membership in a violent gang, and allegations that he
committed a strong-arm robbery just hours before the
incident. App. 12–13. Detective Martin reasonably
suspected that Castro was armed and dangerous. He
believed Castro was high on methamphetamine such
that Tasers and other police weapons “c[ould] be less
effective,” and he observed Castro continue to resist
arrest even after offers attempted to subdue him with
Tasers and physical restraint. App. 18, 27.
Significantly, even Castro admitted that he refused to
obey repeated commands, see id., whereas the suspect
in Watkins did not surrender prior to release of the dog
because he purportedly did not hear the officer’s
command and only failed to comply after the dog began
biting him because he was “recoiling from the dog’s
bite.” See Watkins, 145 F.3d at 1090. And no facts here
suggest that Detective Martin encouraged the dog to
continue biting Castro, unlike the officer in Watkins.
Watkins provided no notice to Detective Martin that
the duration of the dog bite under these
circumstances—namely in subduing a non-compliant,
dangerous, and potentially armed suspect—violated
the Constitution. See Kisela, 138 S. Ct. at 1154;
Sheehan, 575 U.S. at 614, 616.
The Ninth Circuit also ignored one of its own prior
opinions that contradicts its conclusion here. In Miller
v. Clark County, 340 F.3d 959 (9th Cir. 2003), the
Ninth Circuit rejected a claim of excessive force when
an officer ordered a police dog to bite a suspect for
forty-five to sixty seconds. Id. at 961, 968. There, as
here, the suspect fled from police, was wanted for a
prior effort to flee from police, failed to comply with
police commands, and ignored warnings that a police

31
dog would be released. Id. at 965. The court concluded
that, under those circumstances, the officer was
“entitled to assume that [the suspect] posed an
immediate threat to his and to the other deputy’s
safety.” Id. The Ninth Circuit’s holding in Miller
undermines the proposition that Detective Martin’s
conduct, which occurred under similar circumstances,
constituted excessive force. Miller also refutes the
notion that Detective Martin’s conduct violated “clearly
established law.” See Kisela, 138 S. Ct. at 1153–54
(holding that the Ninth Circuit erred in rejecting a
claim to qualified immunity where a reasonable officer
could have believed his actions comported with the
Fourth Amendment based on analogous Ninth Circuit
case law).
At bottom, the Ninth Circuit’s determination that
Detective Martin is not entitled to qualified immunity
boils down to reliance on the general principle that a
prolonged dog bite may constitute excessive force in
some instances. But nothing put Detective Martin on
notice that the short duration of this dog bite may have
been excessive because no case purports to define how
quickly after a suspect is handcuffed an officer must
remove a K9, especially when the suspect actively
resists arrest, fails to respond to lesser force, and is
believed to be armed. To the contrary, case law in the
Ninth Circuit and other circuits would lead a
reasonable officer to conclude that the duration of
Storm’s bite was reasonable under the circumstances.
See Miller, 340 F.3d at 968; Escobar, 895 F.3d at 394;
Zuress, 815 F. App’x. at 7–8; Ashford, 951 F.3d at 804;
Kuha, 365 F.3d at 600–01.

32
The Ninth Circuit “failed to identify a case where an
officer acting under similar circumstances as Officer
[Martin] was held to have violated the Fourth
Amendment.” White, 137 S. Ct. at 552; see also
Emmons, 139 S. Ct. at 504 (reversing where the court
of appeals relied on distinguishable case law in
evaluating clearly established law). Detective Martin is
therefore shielded by qualified immunity. This Court
should grant review to compel compliance with
established precedent and enforce the public policies
served by qualified immunity.
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
TIMOTHY J. BERG
Counsel of Record
BRADLEY J. PEW
BRETT C. GILMORE
TYLER D. CARLTON
FENNEMORE CRAIG, P.C.
2394 E. Camelback Rd.
Suite 600
Phoenix, AZ 85016
602-916-5421
tberg@fennemorelaw.com
Counsel for Petitioners

